App. 1
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT

No. 18-10304

EFRAIN AREIZAGA
Plaintiff - Appellant
v.
ADW CORPORATION
Defendant - Appellee

Appeal from the United States District
Court for the Northern District of Texas
USDC No. 3:14-CV-2899

Before SOUTHWICK, WILLETT, and OLDHAM,
Circuit Judges. PER CURIAM: l.
1 Pursuant to 5TH CIR. R. 47.5, the court has determined
that this opinion should not be published and is not

App. 2
The plaintiff is a former employee of the de­
fendant. Among his various claims was that his
employer violated the Fair Labor Standards
Act. The district court ordered mediation, which
seemingly was successful. The parties executed
a settlement agreement, and the plaintiff dis­
missed his suit. On appeal now is the district
court's denial of the plaintiff s year-later motion
for relief from that judgment. We AFFIRM.

FACTUAL AND PROCEDURAL
BACKGROUND
From 2010 to 2013, Efrain Areizaga worked for
ADW Corporation, which provides heating and
cooling equipment and architectural products in
north Texas. Areizaga was involved with prepar­
ing price estimates for sales of the products. Itis
ADW's position that Areizaga voluntarily ended
his employment in June 2013. Areizaga disagrees.
He brought suit in Texas state court in July 2014,
claiming ADW through contract breaches, tortious
conduct, and violations of the Fair Labor Stand­
ards Act, caused his resignation. ADW timely re­
moved the case to the United States District
Court for the Northern District of Texas.

precedent except under the limited circumstances set forth
in 5TH CIR. R. 47.5.4.

App. 3
The parties settled after participating in courtordered mediation in 2016. On Areizaga's motion,
the district court dismissed the case with preju­
dice in August 2016. Less than a year later,
Areizaga moved for relief from the final judgment
under Rule 60 of the Federal Rules of Civil Proce­
dure, claiming fraud and intimidation during the
mediation. The district court denied the motion on
February 12, 2018, and Areizaga noticed his ap­
peal on March 8.
Areizaga seeks review of three interlocutory
orders of the district court that predate the order
of dismissal. He also seeks reversal of the district
court's denial of his Rule 60(b)(3) motion.
DISCUSSION
We do not have jurisdiction over the three or­
ders predating the final judgment that followed
Areizaga's motion to dismiss. That is because
there was no timely appeal of the final judgment.
A party dissatisfied with a final judgment has 30
days to file a notice of appeal. 28 U.S.C. § 2107(a);
FED. R. APP. P. 4. Failure to appeal within the
statutory period is a jurisdictional failure. Bowles
v. Russell, 551 U.S. 205, 210-11 (2007). Here,
more than a year passed between the final judg­
ment and the current appeal.
Jurisdiction does exist, though, over the appeal
of the denial of the rule 60(b)(3) motion. We review
the district court’s denial of that motion for an

App. 4
abuse of discretion, Bailey v. Cain, 609 F.3d 763,
767 (5th Cir. 2005).
Areizaga claims entitlement to relief from
the final judgment on the basis of "fraud . . . ,
misrepresentation, or misconduct by an oppos­
ing party." FED. R. CIV. P. 60(b)(3). To succeed
on such a motion, the movant must show by clear
and convincing evidence "(1) that the adverse
party engaged in fraud or other misconduct,
and (2) that this misconduct prevented the mov­
ing party from fully and fairly presenting his
case." Hesling u. CSX Transp., Inc., 396 F.3d
632, 641 (5th Cir. 2005).
Areizaga claims that ADW engaged in fraud
and misconduct by failing to answer fully a dis­
covery request and by allegedly threatening
him during mediation. The threat allegedly is
what led to his agreement to settle the case.
Areizaga feared losing his job because ADW al­
legedly threatened legal action against his new
employer, Bartos, due to Areizaga's use of
ADW's proprietary information. ADW also alleg­
edly communicated with Bartos about the use
of proprietary information. Areizaga asserts
that he would not have worried about his job,
and thus would not have been as susceptible to
threats, had he known that ADW directly com­
municated with his employer.

App. 5
The district court concluded that Areizaga
failed to prove ADW engaged in fraud by its re­
sponse to a discovery request. A party engages
in misconduct under Rule 60(b)(3) when it know­
ingly fails to disclose evidence called for by a dis. covery order. Government Fi n. Servs. One Ltd .
P'ship v. Peyton Place, Inc., 62 F.3d 767, 772-73
(5th Cir. 1995). Although discovery orders are
different from discovery requests, we do not en­
dorse the district court's view that failing to give
a complete and accurate answer to an inter­
rogatory is not fraud or misconduct. We agree
with the district court, though, that the alleg­
edly incomplete response here could not have
had any effect. The interrogatory asked ADW
to "identify" those with whom ADW had commu­
nicated about the lawsuit, but the interrogatory
did not ask for the contents of the communica­
tions. Areizaga alleges that ADW communicated
with the president of Bartos about the lawsuit,
but ADW did not list Bartos in its response to
the interrogatory. Still, ADW had already dis­
closed that it planned to call the president of
Bartos as a witness. Areizaga therefore did not
prove that any nondisclosure prevented him
from "fully and fairly presenting his case."
Gov't Fin. Servs., 62 F.3d at 773. Accordingly, re­
lief was not warranted under Rule 60(b)(3).
The district court also rejected the argument
that the alleged threats warranted relief from
judgment. The court held that there was no

App. 6
admissible evidence of threats because confiden­
tiality protections for mediation applied to any
threatening statements. Texas law protects
statements made during mediation, with lim­
ited, enumerated, and inapplicable exceptions.
TEX. CIV. PRAC. &REM. CODE ANN. § 154.073.
Areizaga does not identify any statutory excep­
tion. Instead, he argues that confidentiality for
mediation should not apply because of the
crime-fraud exception, and because ADW
waived confidentiality by communicating with
Areizaga's employer about the mediation. He
also suggests that the district court erred by
implying that threats made during mediation
are "substantive" to the mediation process and,
thus, confidential. Areizaga's only evidence was
his own account of the statements.
Section 154.073 contains no clear exception
for either crime-fraud or waiver. See PRAC. &
REM. § 154.073. The crime-fraud exception ap­
plies to attorney-client privilege and workproduct privilege. In re Grand Jury Sub­
poena, 419 F.3d 329, 335 (5th Cir. 2005). It
is inapplicable here. In addition, even if there
were a waiver exception under Section 154.073,
it would not apply because nothing in the rec­
ord indicates that ADW ever waived confi­
dentiality by telling Bartos about the alleged
threats or the content of discussions in media­
tion.

App. 7
The remaining question, then, is whether
the alleged threats were covered by the confi­
dentiality protections of Texas mediation law.
Section 154.073 is confined to "matters occur­
ring during the 'settlement process'" -in
Areizaga's words, what is "substantive." In re
Daley, 29 S.W.3d 915, 918 (Tex. App.-Beaumont
2000, orig. proceeding). One Texas court of ap­
peals held that "Communications made dur­
ing an alternative dispute resolution proce­
dure are confidential, and may not be used as ev­
idence." Rabe v. Dillard's, Inc., 214 S.W.Sd 767,
769 (Tex. App.-Dallas 2007, no pet.). Another
court held that whether a party had physi­
cally left the mediation discussion "prior to
its conclusion [and] without the permission of
the mediator" was "not a matter related to the
settlement process itself," and thus that fact
was not confidential. Daley, 29 S.W.3d at 918.
Although there is no binding authority on the
exact question before us, we are persuaded
that the alleged threats here are more like the
protected communications in Rabe than the
non-protected physical act in Daley. The al­
leged threats are protected as confidential be­
cause they occurred within the confines of
the structured mediation discussion. PRAC. &
REM. § 154.073; Rabe, 214 S.W.3d at 769.
Because Areizaga provided no competent ev­
idence of threats to carry his burden, the

App. 8
district court did not err in finding the al­
leged threats to be confidential and inadmis­
sible.
AFFIRMED.

App. 9
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION

No. 3:14-CV-2899P

EFRAIN AREIZAGA
Plaintiff,
v.
ADW CORPORATION,
Defendant,
MEMORANDUM OPINION AND ORDER
Before the Court is Plaintiff s Motion to Set Aside
Final Judgment. Doc. 171. For the reasons that fol­
low, the Court DENIES Plaintiff s Motion.

I.
BACKGROUND
Pro se Plaintiff Efrain Areizaga asks the Court
to vacate the settlement agreement that the

App. 10
parties reached after mediation and set aside the fi­
nal judgment dismissing this case with prejudice.
Doc. 171, Pl.'s Mot., 1. Plaintiff filed suit in 2014,
alleging Defendant ADW Corporation (ADW) , his
former employer, violated the Fair Labor Standards
• Act by failing to pay him overtime wages. Doc. 1-2,
App'x to Notice of Removal, Ex. 2. In 2016, the par­
ties attended mediation and settled their claims.
Doc. 165, ADR Summary. Nearly a year later, Areizaga filed this Motion, claiming that ADW's counsel
threatened him during mediation and coerced him
into signing the settlement agreement. Doc. 172,
Pl.'s Br., 2-3.
Specifically, Areizaga claims that during media­
tion ADW told him that (1) Areizaga had taken pro­
prietary information from ADW without its consent
and that it could sue his current employer, Bartos
Industries (Bartos) for that reason, (2) Areizaga
had used Bartos' proprietary information in his mo­
tion for summary judgment, and (3) Areizaga could
be blacklisted in the industry, presumably because
of his use of proprietary information. Id. at 3. Areiz­
aga claims the threats made him fear he would lose
his job and he therefore felt coerced into signing the
settlement agreement. Id.

*The Court draws its factual history from the parties' briefing.
Any contested fact is identified as the contention of a particu­
lar party.

App. 11
He also alleges that without telling Areizaga,
ADW communicated the same information to Bartos'
President, Christian Young, before the mediation and
that ADW was required, but failed, to include this fact
in its answer to one of Areizaga's interrogatories. Id
.Areizaga argues that if he had known prior to medi­
ation that ADW had already communicated these
threats to Bartos, he would not have feared for the
loss of his job and would not have agreed to settle his
case.Id.
In his Motion to Set Aside, Areizaga claims he is
entitled to relief pursuant to Federal Rule of Civil
Procedure 60(b) (3) , which provides relief from a
judgment or order when there is fraud, misrepresen­
tation, or misconduct by an opposing party. Doc. 171,
Pl.'s Mot., 1. In his brief in support of his Motion,
Areizaga makes a number of other claims against
ADW based on the same set of alleged facts. These
claims are either inapplicable to a Rule 60(b)(3)
analysis or, like his Rule 60(b)(3) claim, turn on
whether ADW committed fraud. Therefore, the
Court will analyze his Motion as one under Rule
60(b)(3).

2 It appears that Areizaga's additional claims are: (1) fraud
on the court pursuant to Rule 60(d)(3); (2)common law fraud;
(3) retaliation in violation of the FLSA; (4) violation of Fed­
eral Rules of Civil Procedure 11 (b), 16(f), and 33(b)(3);(5) that
the settlement agreement is void and unenforceable because
of ADW's fraud; and (6) violation of 18U.S.C. §1503-influencing or injuring an officer or juror.

App. 12
II
LEGAL STANDARD
The purpose of Federal Rule of Civil Procedure 60(b)
"is to balance the principle offinality of a judgment
with the interest of the court in seeing that justice is
done in light of all the facts." Hesling u. CSX Transp.
Inc., 396 F.3d 632, 638 (5th Cir. 2005). In order to see
that justice is done, a court may relieve a party from
final judgment. Parker v. Wal-Mart Stores Inc., 464 F.
App'x 224, 228 (5th Cir. 2010). Under Rule 60(b) (3),
a court may relieve a party from final judgment when
there is "fraud, . . . misrepresentation, or misconduct
by an opposing party." Fed. R. Civ. P. 60(b)(3). "A
party making a Rule 60(b) (3) motion must establish
(1) that the adverse party engaged in fraud or mis­
conduct and (2) that this misconduct prevented the
moving party from fully and fairly presenting his
case." Hesling, 396 F.3d at'641. "The moving party has
the burden of proving the misconduct by clear and
convincing evidence." Id.

See Doc. 172, Pl.'s Br., 4, 5, 11-13, 14, 16-17, 21. None of
these claims have merit. Claims one, two, and five turn on
whether ADW committed fraud. Because, as addressed in
Section III, the Court finds ADW did not commit fraud, it
dismisses claims one, two, and five. As for claim three,
even if this Motion were a proper vehicle for bringing an
FLSA retaliation claim, which it is not, Areizaga offers no
binding legal authority to support his claim that seeking to

App. 13
"blacklist" a former employee at least three years after his
termination constitutes an adverse employment action. See
id. at 13. Regarding claim four, Areizaga's claim under
Rule 11(b) is inapplicable as that rule governs a party's
representations made to the court and ADW's interroga­
tory answers were not presented to the court. Fed. R. Civ.
P. 11(b). Areizaga has no claim under Rule 16(f) because
the statements he believes show that ADW did not partic­
ipate in the mediation in good faith are confidential and
inadmissible. And Rule 33(b)(3) states only that a party
must fully answer an interrogatory; it does not provide re■ lief for allegedly failing to do so. Fed. R. Civ. P.33(b)(3). Fi­
nally, claim six is also inapplicable as Areizaga has not al­
leged ADW intimidated or influenced a juror or an officer
of the Court.

Ill
ANALYSIS
Areizaga argues that ADW's fraud is two-part. First,
Areizaga argues that ADW failed to disclose in its
answer to one of Areizaga's interrogatories that it
had communicated with Bartos' President, Mr.
Young. Doc. 172, Pl.'s Br., 3, 9. Areizaga claims that
ADW's counsel told Mr. Young that Areizaga had
used ADW's propriety information in his motion for
summary judgment and ADW could sue Bartos be­
cause of that, and that Areizaga had used Bartos'
propriety information in his motion for summary judg­
ment. Id .at 2-3, 9. Areizaga claims his interrogatory
that asked ADW to disclose any person with whom
it had discussed the "events, allegations, [and] af­
firmative defenses" of the lawsuit required ADW to

App. 14
disclose its communications with Mr. Young. Id. at
14. Second, Areizaga claims that during mediation,
ADW's counsel threatened him with the same infor­
mation about Areizaga' s use of proprietary infor­
mation and told him that he could be blacklisted from
the industry. Id. at 3, 8-9. Areizaga claims this threat
made him fear for his job and coerced him into agree­
ing to settle. Id. He claims that if had known that
ADW had already told Bartos that Areizaga had
used the proprietary information at issue he would
not have feared for his job and would not have agreed
to settle. Id. at 3. Areizaga appears to argue that
ADW's alleged failure to disclose its communications
and its alleged threats during mediation are inde­
pendent grounds for finding fraud under Rule 60(b)
(3), although he also appears to argue that the combi­
nation of ADW's actions constitute fraud. Areizaga
acknowledges that communications during mediation
are typically confidential, but argues that ADW has
waived their confidentiality by making the same
statements to Mr. Young and because the crimefraud exception applies. Id. at 18-19.
For its part, ADW disputes that the communications
with Mr. Young or with Areizaga during mediation
ever occurred. See Doc. 174, Def.'s Resp., 3, 9. ADW
also argues that even if Areizaga's allegations were
true, Areizaga has not established he is entitled to re­
lief under Rule 60(b) (3). First, ADW argues that its
counsel's alleged communications with Mr. Young
about ADW's and Bartos' propriety informa tion fall
under Texas's judicial proceedings privilege because

App. 15
they were made in relation to litigation. Id. at 4.
Presumably, therefore, it was not required to disclose
these communications in its answer to Areizaga's in­
terrogatory. Second, ADW argues that even if its
alleged actions did constitute fraud, Areizaga cannot
demonstrate he was unable to fairly present his case.
Id. at 6-9. ADW claims that because it told Areizaga
that it planned to call Mr. Young as a witness and
because Areizaga spoke freely about his lawsuit with
Bartos employees, Areizaga knew that Bartos was
aware of his lawsuit even though ADW did not disclose
its alleged communications with Mr. Young. Id. at 57. Finally, ADW argues that communications be­
tween the parties during mediation are confidential
and inadmissible and that ADW has not waived con­
fidentiality. Id. 9-11. Because Areizaga is a pro se
litigant, the Court affords his brief "liberal construc­
tion." McCreary v. Richardson, 738 F.3d 651, 655 (5th
Cir. 2013). But pro se litigants must still "abide by the
rules that govern the federal courts." E.E.O.C. v.
Simbaki, Ltd., 767 F.3d 475, 484 (5th Cir. 2014) .
Therefore, Areizaga must prove by clear and con­
vincing evidence that ADW committed fraud even
though he is pro se. See id.
Areizaga fails to prove by clear and convincing
evidence that ADW engaged in fraud by either failing
to disclose its alleged communications with Mr.
Young or by threatening Areizaga during mediation.
A. Alleged Communications withMr. Young

App. 16
The Court will first tackle the purported communi­
cations with Mr. Young. Areizaga produces no evi­
dence other than his own affidavit that ADW told Mr.
Young that Areizaga had used ADW's propriety in­
formation. See Doc. 172, Pl.'s Br., 9. Simply stating
that the communication occurred does not prove that
it in fact happened. And if Areizaga cannot prove
that the communication occurred, there can be no
fraud for failing to disclose the alleged communica­
tion.
To prove the alleged communication regarding
Areizaga's use of Bartos' proprietary information,
Areizaga points to his 2016 Personnel Action Form,
which states that Mr. Young was informed by an
ADW attorney that Areizaga had used Bartos' propri­
ety information in his lawsuit. Doc. 173, Pl.'s App'x.,
Ex. 8. The Court declines to examine whether this
Form is admissible or whether ADW's statements to
Mr. Young were privileged. Even if the form is admis­
sible and even if ADW should have disclosed that it
spoke to Mr. Young in its interrogatory answer, its
failure to do so does not constitute fraud. Areizaga's
interrogatory asks ADW to list the names of those
with whom it spoke about Areizaga's lawsuit.. Doc.
172, Pl.'s Br., 14; Doc. 173, Pl.'s App'x., Ex. 2. It does
not ask for the content of the conversations with those
listed. Therefore, Areizaga would not have learned
what ADW’s counsel said to Mr. Young even if ADW
had fully responded to the interrogatory. And includ­
ing Mr. Young’s name in its answer would have pro­
vided no new information to Areizaga, since ADW had

App. 17
already disclosed that it planned to call Mr. Young as
a witness. Doc. 174, Def.'s Resp., 5-6; Doc. 175, Def.'s
App'x, Ex. 1. Therefore, Areizaga was already aware
that Mr. Young knew of his lawsuit against ADW.
Thus, Areizaga has not proven that ADW engaged in
fraud by failing to disclose its purported conversa­
tions with Mr. Young.
B. ADWs Alleged Threats During Mediation
Because the Court finds that Areizaga failed to
prove that ADW committed fraud when responding
to Areizaga’s interrogatory, Areizaga’s claim that
ADW's failure to respond fully combined with its
threat during mediation constituted fraud must also
fail. That leaves only Areizaga’s claim that ADW’s
threat during mediation independently constitutes
fraud. The court finds this claim also fails.
ADW’s and Areizaga’s communications during me­
diation are confidential and inadmissible in a judicial
proceeding. The parties’ mediation was subject to the
Texas Alternative Dispute Resulution Procedures Act
(Texas ADR Act). Doc. 175, Def.’s App’x, Ex. 4. Section
154.073 of the act provides that “a communication re­
lating to the subject matter of any civil or criminal dis­
pute made by a participant in an alternative dispute
resolution procedure ... may not be used as evidence
against the participant in any judicial or administra­
tive proceeding.” Tex. Civ.Prac. & Rem. Code Ann. §
154.073(a)(West 2001). Although there are several
narrow exceptions to this rule, the court does not

App. 18
believe any exception applies and neither party ar­
gues that any do.
Areizaga does argue that ADW waived the confi­
dentiality of its statements during mediation by mak­
ing the same statements to Mr. Young before me­
diation and because the crime-fraud exception ap­
plies. Doc. 172, Pl.'s Br., 17-19. The Court disagrees.
Areizaga makes no legal argument that statements
made prior to mediation operate as a waiver of the
confidentiality of similar but separate statements
made during mediation. The crime-fraud exception
as it relates to ADW's alleged statements to Mr.
Young is therefore inapplicable. The exception is
also inapplicable to communications during media­
tion because it applies to material deemed confiden­
tial under the attorney-client privilege, not material
made confidential under the Texas ADR Act. See
United States v. Edwards, 303 F.3d 606, 618 (5th Cir.
2002). Therefore, because ADW's alleged threats dur­
ing mediation are confidential and inadmissible,
Areizaga has failed to prove by clear and convincing
evidence that ADW's alleged threats during media­
tion constituted fraud. Because Areizaga fails prove
ADW engaged in fraud or misconduct, he is not enti­
tled to relief under Rule 60(b) (3).
V
CONCLUSION

App. 19
For the foregoing reasons, the Cojart DENIES Plain­
tiff s Motion.
SO ORDERED.
DATED: February 12, 2018

/s/

Jane J. Boyle
United States District Judge

App. 20
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION

No. 3:14-CV-2899P

EFRAIN AREIZAGA
Plaintiff,
v.
ADW CORPORATION,
Defendant,
ORDER
Now before the Court are Plaintiffs Motion for
Reconsideration, doc. 36, Motion to Stay, doc. 41,
and Motion for Protective Order, doc. 42. After re­
viewing the parties' briefing and the applicable law,
the Court DENIES Plaintiff s motions.
Plaintiff asks the Court to reconsider its previous
Order denying Plaintiffs' requests to strike Defend­
ant's Answer. A motion seeking "reconsideration" of

App. 24
Is/

Jorge A. Solis
United States District Judge

